App. No. ___________
--------------------------In the
Supreme Court of the United States
--------------------------CALLAN CAMPBELL, KEVIN C. CHADWICK (INDIVIDUALLY AND THROUGH
HIS COURT-APPOINTED ADMINISTRATORS, JAMES H. CHADWICK AND
JUDITH STRODE CHADWICK), JAMES H. CHADWICK, JUDITH STRODE,
CHADWICK, THE TYLER JUNSO ESTATE (THROUGH KEVIN JUNSO, ITS
PERSONAL REPRESENTATIVE), NIKI JUNSO, AND KEVIN JUNSO, all on their
own behalf and on behalf of a class of all others similarly situated,
Petitioners,
v.
UNITED STATES,
Respondent.
--------------------------ON APPLICATION FOR EXTENSION OF TIME TO FILE A PETITION FOR A
WRIT OF CERTIORARI TO THE UNITED STATES COURT OF APPEALS FOR
THE FEDERAL CIRCUIT
--------------------------PETITIONERS’ APPLICATION FOR EXTENSION OF TIME
TO FILE A PETITION FOR A WRIT OF CERTIORARI
--------------------------Steve Jakubowski
Robert H. Thomas
Counsel of Record
ROBBINS, SALOMON & PATT, LTD.
DAMON KEY LEONG KUPCHAK
180 North LaSalle Street, Suite 3300
HASTERT
Chicago, Illinois 60601
1003 Bishop Street, 16th Floor
Telephone: (312) 456-0191
Honolulu, Hawaii 96813
Email: sjakubowski@rsplaw.com
Telephone: (808) 531-8031
Facsimile: (808) 533-2242
Co-counsel for Petitioners
Email: rht@hawaiilawyer.com
Dated: January 29, 2020

App. No. ___________
--------------------------In the
Supreme Court of the United States
--------------------------CALLAN CAMPBELL, KEVIN C. CHADWICK (INDIVIDUALLY AND THROUGH
HIS COURT-APPOINTED ADMINISTRATORS, JAMES H. CHADWICK AND
JUDITH STRODE CHADWICK), JAMES H. CHADWICK, JUDITH STRODE,
CHADWICK, THE TYLER JUNSO ESTATE (THROUGH KEVIN JUNSO, ITS
PERSONAL REPRESENTATIVE), NIKI JUNSO, AND KEVIN JUNSO, all on their
own behalf and on behalf of a class of all others similarly situated,
Petitioners,
v.
UNITED STATES,
Respondent.
--------------------------PETITIONER’S APPLICATION TO EXTEND TIME
TO FILE A PETITION FOR A WRIT OF CERTIORARI
--------------------------To the Honorable Chief Justice John R. Roberts, as Circuit Justice for the
United States Court of Appeals for the Federal Circuit:
Pursuant to 28 U.S.C. § 2101(c) and Supreme Court Rules 13.5, 22, and 30.3,
petitioners Callan Campbell, Kevin C. Chadwick (individually and through his
court-appointed administrators, James H. Chadwick, and Judith Strode Chadwick),
James H. Chadwick, Judith Strode Chadwick, the Tyler Junso Estate (through
Kevin Junso, its personal representative), Niki Junso, and Kevin Junso, all on their

1

own behalf and on behalf of a class of all others similarly situated (collectively, the
“Petitioners”) respectfully request that the time to file a petition for a writ of
certiorari in this case be extended for sixty days to April 20, 2020. Petitioners will
ask this Court to review a judgment by the United States Court of Appeals for the
Federal Circuit entered on August 1, 2019, a copy of which is attached hereto as
Appendix 1. Absent an extension of time, the petition would be due on February 20,
2020. Petitioner is filing this application at least ten days before that date. See Rule
13.5 of the Supreme Court Rules. This Court has jurisdiction under 28 U.S.C.
§ 1257 to review this case.
Background
Petitioners are natural persons, court-appointed administrators, decedents’
estates, and representatives and others (collectively, the “Accident Victims”) that
hold allowed prepetition claims (the “Personal Injury Claims”) in the bankruptcy
case of In re Motors Liquidation Company, et al., f/k/a General Motors Corp., No.
09-50026 (Bankr. S.D.N.Y) (the “Bankruptcy Case”) based on deaths or personal
injuries caused by defective motor vehicles (or component parts thereof)
manufactured, sold, or delivered by General Motors Corporation (“Old GM”) before
June 1, 2009, the date Old GM commenced its Bankruptcy Case. Petitioners
represent a putative class consisting of approximately 2,000 Accident Victims with
aggregate liquidated claims of approximately $320 million.
On July 10, 2009, the Government closed on and thereby consummated its
purchase of substantially all of Old GM’s operating assets through a wholly-owned,

2

government-sponsored enterprise formed on the eve of Old GM’s bankruptcy filing
(“New GM”). The sale agreement through which the government’s acquisition was
consummated (the “Sale Agreement”) provided that New GM would voluntarily
assume in full approximately $60 billion in prepetition unsecured liabilities,
including the unsecured claims of trade vendors, senior executives, unions and
pensions.
The order of the bankruptcy court approving the Sale Agreement (the “Sale
Order”) provided that any claim not expressly assumed in the Sale Agreement at
the closing of the sale would be permanently enjoined from being pursued against
New GM as successor. Because Petitioners’ claims were not expressly assumed in
the Sale Agreement, Petitioners were prohibited from pursuing successor liability
claims against New GM. Petitioners’ complaint alleged that New GM was the legal
successor to Old GM under Michigan law and would have been liable to consumers
injured by GM’s product defects. The Sale Order’s injunction, however, prevented
the Accident Victims from suing New GM after the sale. Significantly, few of the
other general unsecured claimants left behind (e.g., the bondholders whose claims
represented approximately 85% of the general unsecured claim pool) had successor
liability rights against New GM under Michigan law because there was no identity
of interest among the owners of Old GM (i.e., the public) and the owners of New GM
(i.e., the government and the unions).
The Sale Order was entered on July 5, 2009, but the Sale Order, by its own
terms, provided that the effectiveness of the Sale Order would be delayed until July

3

9, 2009 at noon eastern. The sale closed on July 10, 2009, on which date,
Petitioners’ successor liability claims died aborning.
On July 9, 2015, Petitioners commenced a takings action in the United States
Court of Federal Claims against the United States. Petitioners’ complaint alleged
that the Government’s targeting of Petitioners’ successor liability claims against
New GM for elimination in the bailout “went too far” because the government was
financially indifferent to assumption of these claims yet it forced the Accident
Victims to absorb a disproportionate burden of the costs of the bailout that in all
fairness and justice should have been borne by the public as a whole.
The United States Court of Federal Claims dismissed the action, holding: (i)
Petitioners’ successor liability claims against New GM were not property interests
protected under the Fifth Amendment and (ii) the case was filed four days too late
as it should have been filed no later than six years after the entry of the sale order.
The United States Court of Appeals for the Federal Circuit affirmed on
statute of limitations grounds alone. The Federal Circuit (Dyk, J.) held that
Petitioners’ takings claims was a regulatory takings claim and accrued under the
Tucker Act on the date the Government made its final decision to not assume
Petitioners’ successor liability claims in the sale. According to the Federal Circuit,
Petitioners’ takings claims accrued when that final decision was made, even if that
decision occurred “before the effect of the regulatory action [was] felt.” (Op. at 11).
On November 22, 2019, the Federal Circuit denied the Petition for Panel Rehearing.

4

Opinions Below
A.

The United States Court of Appeals for the Federal Circuit issued its

opinion in the case on August 1, 2019. Appendix 1.
B.

The Federal Circuit denied Petitioners’ Combined Petition for Panel

Rehearing and Rehearing en banc on November 22, 2019 (the “Petition for Panel
Rehearing”). Appendix 2.
Jurisdiction
This Court has jurisdiction under 28 U.S.C. § 1257.
Reasons for Granting an Extension of Time
The time to file a petition for a writ of certiorari should be extended for sixty
days, to April 20, 2020 for several reasons, which constitute “good cause” for
granting an extension under Rule 13.5 of the Rules of this Court and 28 U.S.C.
§ 2101(c):
1.

The forthcoming petition for certiorari to be filed on behalf of the

Petitioners presents an important federal constitutional question: specifically, does
a regulatory takings claim accrue for purposes of the six-year statute of limitations
under the Tucker Act, 28 U.S.C. § 2501, upon the occurrence of a final regulatory
decision even if the effect of that regulatory action had not yet been felt by the
plaintiff?
2.

Additional time is necessary and warranted because Petitioners have

just recently retained Robert H. Thomas and the law firm of Damon Key Leong
Kupchak Hastert to serve as co-counsel. Mr. Thomas has significant experience in

5

regulatory takings cases. He independently learned about the case after the Federal
Circuit entered its decision on August 1, 2019 and his concerns about the
implications of this decision for takings jurisprudence generally led him to
represent the Center for Auto Safety in the filing of an amicus brief in support of
the Petition for Panel Rehearing. As co-counsel for the Petitioners, Mr. Thomas and
his team will need to review the extensive briefing and record in the case, research
applicable case law and federal constitutional law, and assist in preparation of a
clear and concise petition for certiorari for the Court’s review.
3.

No prejudice to the United States would arise from the extension.

4.

On January 16, 2020, Mr. Jakubowski sent the Solicitor General of the

United States an email communication asking whether he would consent to
Petitioners’ request for an extension of time to file its petition for certiorari. The
Solicitor General had not responded to Petitioners’ communication as of the time of
filing of this application.

6

Conclusion
For good cause shown, the time to file a petition for a writ of certiorari in this
matter should be extended sixty days through and including April 20, 2020.
Respectfully submitted.

Steve Jakubowski
ROBBINS, SALOMON & PATT, LTD.
180 North LaSalle Street, Suite 3300
Chicago, Illinois 60601
Telephone: (312) 456-0191
Email: sjakubowski@rsplaw.com

Robert H. Thomas
Counsel of Record
DAMON KEY LEONG KUPCHAK
HASTERT
1003 Bishop Street, 16th Floor
Honolulu, Hawaii 96813
Telephone: (808) 531-8031
Facsimile: (808) 533-2242
Email: rht@hawaiilawyer.com

Co-counsel for Petitioners
Dated: January 29, 2020

7

App. No. ___________
--------------------------In the
Supreme Court of the United States
--------------------------CALLAN CAMPBELL, KEVIN C. CHADWICK (INDIVIDUALLY AND THROUGH
HIS COURT-APPOINTED ADMINISTRATORS, JAMES H. CHADWICK AND
JUDITH STRODE CHADWICK), JAMES H. CHADWICK, JUDITH STRODE,
CHADWICK, THE TYLER JUNSO ESTATE (THROUGH KEVIN JUNSO, ITS
PERSONAL REPRESENTATIVE), NIKI JUNSO, AND KEVIN JUNSO, all on their
own behalf and on behalf of a class of all others similarly situated,
Petitioners,
v.
UNITED STATES,
Respondent.
--------------------------PROOF OF SERVICE
--------------------------I HEREBY CERTIFY that on January 29, 2020, a true and correct copy of the
foregoing documents were served upon the following parties by email and by U.S.
Mail:
The Honorable Noel Francisco, Solicitor General of the United States
Office of the Solicitor General
950 Pennsylvania Avenue, NW
Washington, D.C. 20530
Tel: (202) 514-2203
-

and

-

John J. Todor, Esq.
Senior Trial Counsel
8

Commercial Litigation Branch
Civil Division
Department of Justice
P.O. Box 480
Ben Franklin Station
Washington, D.C. 20044
Tel: (202) 616-2382
Nashville, Tennessee, January 29, 2020.

Robert H. Thomas
DAMON KEY LEONG KUPCHAK
HASTERT
1003 Bishop Street, 16th Floor
Honolulu, Hawaii 96813
Tel: (808) 531-8031
Email: rht@hawaiilawyer.com

9

